NO. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
BOBBIE LEWIS MAYES
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent
On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 19-60733
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Bobbie L.
Mayes requests leave to file the accompanying Petition for Writ of Certiorari from
the United States Court of Appeals for the Fifth Circuit without prepayment of
costs and to proceed in forma pauperis. Petitioner was represented by counsel
appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the
United States District Court for the Southern District of Mississippi and on appeal
to the United States Court of Appeals for the Fifth Circuit.
1

